BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Amicus Curiae Brief
of the Association of Medical Device Reprocessors in
Support of Petitioner in 19-783, Nathan Van Buren v.
United States, were sent via Two Day Service to the
U.S. Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 7th day of July, 2020:
Jeffrey L. Fisher
Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law .stanford.edu
Counsel for Petitioner
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD OJ.gov
Counsel for Respondent

I

I (8ooi 890.500,

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square

1

1300 I Street, NW, Suite 400E
Washington, DC 20005

Stephen D. Terman
Counsel of Record
J. Mason Weeda
Olsson Frank Weeda Terman Matz PC
2000 Pennsylvania Ave., NW
Suite 3000
Washington, D.C. 20006
(202) 789-1212
sterman@ofwlaw.com
Jeffrey L. Berhold
Jeffrey L. Berhold, P.C.
1230 Peachtree St., Suite 1050
Atlanta, GA 30309
(404)872-3800
Counsel for Amicus Curiae,
Association of Medical Device
Reprocessors

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 7, 2020.

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ ?- , 2)0 dU

Jo . , fj . 75~1.u

Notary Public
[seal]

